Audit Report

Office of Community Oriented Policing Services Tribal Resources Grant Program, 
Grants Awarded to the Choctaw Nation of Oklahoma Law Enforcement
Durant, Oklahoma

Report No. GR-80-05-001


December 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of six Tribal Resources Grant Program (TRGP) grants awarded by the Office of Community Oriented Policing Services (COPS) to the Choctaw Nation of Oklahoma Law Enforcement (Nation).  The purpose of TRGP grants is to expand the implementation of community policing and meet the most serious needs of law enforcement in tribal communities.  The Nation was awarded a total of $804,592 through six grants to hire, train, and equip five law enforcement officers and to purchase and equip vehicles for law enforcement use.

We tested the Nation's compliance with essential grant conditions and found weaknesses in one area we tested.  As a result of the deficiencies identified below, we identified $220,096 to be put to better use.1   We also found that the Nation lacked adequate internal controls to ensure that items purchased with grant funds were properly accounted for and overseen.  We identified equipment valued at $7,278 that was not included in the inventory records, as well as numerous errors in the inventory records themselves.

Our report contains seven recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope, and methodology appear in Appendix I of the report.

We discussed the results of our audit with Choctaw Nation Law Enforcement officials and have included their comments in the report, as applicable.
 



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for the definition of funds to better use.